;
i» .

IN THE
UNITED STATES SUPREME COURT

Supreme Court, U.S.
FILED

FEB 0 8 2021
OFFICE OF THE CLERK

JOSEPH F. OLIVARES - PETITIONER
vs.

MARK LONG, ET AL - RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES 6th CIRCUIT COURT
PETITION FOR WRIT OF CERTIORARI
JOSEPH F. OLIVARES
2581 INTERNATIONAL DRIVE 1220C
YPSILANTI, MI. 48197
734-21-8305

Received
MAR 1 6 2021

A
QUESTIONS PRESENTED FOR REVIEW
DID THE COURT ERR;
1. IN NOT ALLOWING PETITIONER TO DEVELOP THE RECORD FOR
APPEAL, BY ALLOWING AT LEAST ONE HEARING?
2. IN FINDING THAT LIMITATIONS CONTROLS THIS ACTION UNDER 42
U.S.C. 1983, AS A THREE YEAR STATUTE FOR INJURY UNDER MICHIGAN
LAW?
3. IN IGNORING MICHIGAN LAW AS TO STATUTE PETIONER IS
CURRENTLY UNDER, AS OF 2000, TO WHICH THE 2005 ORDER IS VOID AB
INITIO, IN NOT COMPLYING WITH SAID STATUTE?
4. IN VIOLATING PETITIONER’S DUE PROCESS OF KNOWING WHAT HE
WAS TO DEFEND, IN 2005, IN THE MAGISTRATE HAVING AN
INDEPENDENT MEDICAL EXAMINER REVIEW PREVIOUSLY LITIGATED
MEDICAL EVIDENCE, ABSENT THE 2000 X RAY, TO ADAPT THE FINDING
THAT PETITIONER’S INJURY IN 1998 WAS A TORN SHOULDER. TO WHICH
THE MAGISTRATE IN 2000 CONSIDERING THE 2000 X RAY ORDERED
PETITIONER TO RECEIVE REASONABLE AND NECESSARY MEDICAL CARE
FOR HIS ROTATOR CUFF SURGERY AND FOLLOW UP TREATMENT?
5. IN IGNORING THE 2018 ORDER BY THE COMMISSIONER’S IN ASSERTING
THE DOCTRINE OF RES JUDICATA CONTROLS THE 2005 VOID AB INITIO
ORDER, TO THEN CALCULATE WHEN LIMITATION STARTS?

l

B
PARTIES TO THE PROCEEDINGS
All parties do not appear in the caption of the case. The names of the parties are
listed below
Joseph F. Olivares, Petitioner, Appellant, and Plaintiff below
Mark Long individually as Director for the Michigan Worker’s Compensation
Agency. Respondent, Appellee, Defendant below
The Board of Magistrates individually for the Michigan Worker’s Compensation
System. Respondent, Appellee, Defendant below
The Commissioners for the Michigan Worker’s Compensation System
Respondent, Appellee, Defendant below
Performance Contracting Group (PCG)
Respondent, Appellee, Defendant below
Court dismissed this action prior to service
B(iii)
Filed in U.S. District Court, Honorable Paul D. Borman, 2:20-cv 11763
Eastern District of Michigan. Styled Olivares v. Long et al. Date Judgement/Order
entered 07/08/2020
Appeal filed in 6th U.S. Circuit Court on 8/13/2020 under 20-1774, Court
then splits same case under 20-1795, order entered on 1/08/21, motion for
reconsideration denied on 2/4/2021.
D

3

TABLE OF CONTENTS
OPINIONS BELOW

3-4

JURISDICTION

4-5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

5-6

STATEMENT OF THE CASE

6-8

REASONS FOR THE WRIT

9-12

CONCLUSION

12

APPENDIX VOLUME 1
APPENDIX VOLUME 2
The opinions appear in the Appendix and are unpublished

22-25

E
CONCISE STATEMENT OF JURISDICTION
Appeal filed in 6th U.S. Circuit Court on 8/13/2020 under 20-1774, Court
then splits same case under 20-1795, order entered on 1/08/21. Motion for
reconsideration denied on 2/4/2021. No writ for Certiorari filed in lower
Court.
iv. 42 U.S.C. 1983, Judiciary act of 1914, 38 Stat 790. The jurisdiction of this Court
is invoked under 28 U.S.C. § 1254(l).
F
LAW CONTROLLING CONSTITUTIONAL PROVISIONS AND STATUTE
Petitioner filed his claim under 42 U.S.C. 1983, as a due process violation of the
United States Constitution, under Amendment 14, as Petitioner has been placed
under the provisions of MCL 418.301(5), now MCL 418.301(9) as of December
4

2000. Appellants App. Pgs 94-95. The law controlling is McJunkin v Cellastro
Plastics Co. 461 Mich. 590; 608 N.W.2d 57 (2000). Appellants App. 47-51. Petitioner
has not been provided hearing on this matter, by the United States District Court
Eastern District of Michigan.
United States Constitution Amendment 14 Sec 1
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.
42 U.S.C. 1983.
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.
G
CONCSISE STATEMENT OF FACTS STATEMENT OF CASE
5

The case is that a final order entered in 2000, by a Michigan Magistrate for the
Michigan Worker’s Compensation Agency. The Magistrate in 2000, reviewed the
medical evidence, and heard the testimony of Petitioner’s Employer’s Independent
Medical Examiner, as to a 1998 MRI and surgical report, as well as 2000 X ray and
MRI, revealing “abnormal signaling deep within the humeral head, as well as
glenoid appears thinned. At no time has Petitioner received diagnosis. At the time
of June 22nd 1998 surgery, Petitioner believed was to obtain diagnosis for
“narrowing of the subacromial space,” by 1998 MRI, and not a rotator cuff repair.
After said 2000 hearing the Magistrate did not find or order that Petitioner had a
rotator cuff repair.
The evidence for that was by the 1998 Surgical Report that did not reveal that
Petitioner’s sub deltoid bursa had been resected. And the 2000 X ray did not reveal
that the #2 Mersilene sutures used in surgery were used to repair the rotator cuff.
The Magistrate then ordered that “Petitioner shall receive reasonable and
necessary medical care for his rotator cuff surgery, in 2000.
The Magistrate committed multiple due process violations in 2005 in issuing a void
ab initio order, closing award.
The first being it is ministerial to open award in the absence of a showing of work
performed for a minimum of 250 weeks or that the Employer continues to hold out
work that Petitioner is refusing.

6

In 2005, the Magistrate did not find either of these statutory conditions to exist, and
then proceeded, under an equitable theory, that Petitioner’s medical condition had
changed to close award.
The 2005 order makes two findings, not based upon medical diagnosis, in 2000, to
which is an unchanged medical condition, and they are!
1. Petitioner had his rotator cuff repaired.
2. Petitioner suffers a natural medical condition of life as a degenerative shoulder.
Both these issues were fully litigated in 2000, and Petitioner never has been
diagnosed with a degenerative shoulder.
The lower Court, in 2020, upon reconsideration then asserted that the Magistrate
had subject matter jurisdiction based upon a dispute under MCL 418.847.
MCL 418.847 governs procedure and not jurisdiction.
There was no tenable dispute present after 2000, in Petitioner making application
for re instatement of wage loss benefits, as of May 5th 1998.
To which in 2018 the former MCAC, and it’s Commissioners’ asserted Petitioner’s
rights to wage loss benefits are barred by a void ab initio order as res judicata.
Petitioner has yet to receive diagnosis for his 1998 MRI revealing “narrowing of the
subacromial space, has not been provided the 2000 X ray, and has not been provided
diagnosis for the 2000 MRI, with the impression of “abnormal signaling deep
within the humeral head, as well glenoid appears thinned.”
The void ab initio 2005 order is further void on the due process violation that the
Magistrate had reviewed the 2000 medical evidence, by the Employer’s Independent

7

Medical Examiner, Dr. James Wessinger, and asserts the same medical evidence
was reviewed by a second opinion physician Dr. Kathleen Buran. Absent from said
review is the 2000 X Ray.
The reason the 2000 X ray is absent is because said X ray is the basis for the
Magistrate not finding that Petitioner had undergone a rotator cuff repair. Said X
ray not seen by Petitioner at any time probably reveals the location of the #2
Mersilene sutures, at the coracoid. To which Plaintiff does have 2014 X ray, but no
impression or diagnosis of coracoid fixation, resulting in coracoid impingement.
Lastly Petitioner has the right to stipulation as to a proposed diagnosis after June
22nd 1998 surgery, to which bone and ligament were destroyed and video not made,
as to a diagnosis withheld in surgery, in order to effectuate settlement, in this
matter.
ii) Review by the U.S. District Court was sought in the first instance by entry of
order, and denial of reconsideration, by the Honorable Borman in 2020, as to the
2018 entry of Commissioner’s order in this action, asserting the doctrine of res
judicata bars Petitioner’s right to re instatement of wage loss benefits.
h) DIRECT AND CONCISE STATEMENT BY RULE 10(a) AMPLIFIED REASONS
Now Comes Joseph Olivares, Petitioner and says!
Petitioner is seeking review under Supreme Court Rule 10(a), as the 6th Circuit
Court of Appeals has decided an action contrary to the Michigan Supreme Court, in
asserting that limitations controls Petitioners right to have a void ab initio order
set aside, based upon multiple 14thAmendment Due Process right violations.

8

The latest assertion from the lower Court is that a dispute arose, thus providing
subject matter jurisdiction to the Magistrate in 2005, under MCL 418.847.
MCL 418.847 is a procedural statute and not a subject matter jurisdiction
Statute.
MCL 418.301(5), now MCL 418.301(9), is the only legal template allowed for
Petitioner to then file an application for re instatement of wage loss benefits in
2005.
Said statue by it’s own terms does not allow for any dispute whatsoever as to
“ongoing injury,” as opined by the Magistrate in 2005.
The Michigan Supreme Court in 1958 issued an order in Fritz vs Krugh 92 N.W.2d
604. (1958), which allows for void ab initio orders to be set aside as tolling the
Statute of Limitations.
The Michigan Supreme Court in 2000, issued an order governing MCL 418.301(5),
now MCL 418.301(9), and did not interpret said statute as allowing for equitable
relief in the form of dispute as to injury whatsoever. The only dispute allowed after
2000 order was did the Employer hold out work at the time of the 2005 hearing, or
did the Petitioner work for the Employer or any other Employer for a minimum of
250 weeks prior to the Employer contesting the injury as not ongoing. Said dispute
was not raised by the Employer in 2005, in the first place, as being in possession of
Petitioner’s diagnosis as to “narrowing of the subacromial space” by 1998 MRI.
“Glenoid appears thinned, and abnormal signaling deep within the humeral head by
2000 MRI.”

9

Clearly the Magistrate was advocating for the Employer, in re litigating the 2000
medical without re litigating the 2000 X ray. It was the 2000 X ray that failed to
reveal the location of the #2 Mersilene Sutures used in 1998 Surgery, as to the
rotator cuff. By 2014 X ray, Petitioner believes absent an impression that the X ray
shows a coracoid fixation. To which the withheld diagnosis would be a coracoid
impingement. And a coracoid impingement can only be diagnosed by surgery as to
protocols.
After 2000 order, parties only right to diagnosis, in order to settle this matter, was
by a proposed diagnosis, as the Doctrine of Res Judicata does not allow the Surgeon
to testify as to diagnosis after 2000 hearing. The Magistrate in 2005, knew or
should have known that Petitioner was not aware of the results of the 2000 X ray,
and had Petitioner been provided said X ray would have allowed Petitioner to state
that Petitioner actually had a coracoid fixation, as the Mersilene sutures are around
the coroaid, by 2014 X ray in appendix volume 2.
The Employer literally got a second bite at the apple, illegally, in 2005 hearing after
fully litigating their right to have Petitioner’s benefits controlled by MCL
418.301(5), now MCL 418.301(9), to which the Doctrine of Collateral Estoppel as
well as the Doctrine of Res Judicata bar. Sunshine Anthracite Coal Co. v. Adkins
310 U.S. 381 (1940). United States v. Utah Constr. & Mining Co. 382 U.S. 900
(1965)
The 2018 Order from the Appellate Commission clearly demonstrates that of 2005,
Petitioner was pursuing this action, in the proper forum, and had to exhaust State

10

remedies, prior to seeking relief before the U.S. District Court. The prior complaints
were before the 2018 order. Clearly Petitioner has not been allowed to develop the
record in this matter, after exhausting administrative remedies as of 2018, to set
aside a void ab initio order entered in 2005.
As clear legal error by the lower Court and the Court of Appeals goes to both
limitations as well as dispute.
The 2018 order by the Michigan Compensation Appellate Commission is the correct
point to apply limitations under Michigan’s three year statute.
Petitioner was required to exhaust administrative remedies prior to filing complaint
before the lower Court under 42 U.S.C. 1983, and did so as of 2018.
The issue of dispute is clearly stated by Michigan Compensation law.
The only dispute that can be raised by an Employer is whether the injury arose out
of and in the course of employments. And whether the Employer is offering
reasonable employments to bar Petitioner from receiving wage loss benefits.
The first was answered in the positive in 2000.
The second was answered in the negative in 2005.
As a result it is now ministerial to re instate wage loss benefits as of May 5th 1998.
To which Petitioner has been denied due process in not receiving reinstatement of
wage loss benefits in 2005, and declared res judicata in 2018, by the Michigan
Compensation Appellate Commission.
“Generally, where a statute creates a right or duty not found in the common law,
the remedies provided in the statute are exclusive. Int’l Brotherhood of Electrical
Workers, Local 58 v. McNulty, 214 Mich.App. 437, 445, 543 N.W.2d 25 (1995). This
11

Court will infer additional remedies only if those in the statute are “plainly
inadequate,” id., or where “the act provides no adequate means of enforcement of its
provisions.” Forster v. Delton SchoolDist, 176 Mich.App. 582, 585, 440 N.W.2d 421
(1989).
CONCLUSION
CERTIORARI should be granted.
Respectfully submitted

y

March 10th 2021
Dated

■seph F. Olivares, irr^ro se litigant

12

